EXHIBIT D

October 8, 2015
Nita Battise, Chairperson
Alabama-Coushatta Tribe of Texas
571 State Park Road 56
Livingston, TX 77351
RE:

Alabama-Coushatta Tribe of Texas Class II Tribal Gaming Ordinance and Resolution No.
2015-038.

Dear Chairperson Battise:
This letter responds to the request by the Alabama-Coushatta Tribe of Texas July 10,
2015, to the National Indian Gaming Commission to review and approve the Tribe's Class II
gaming ordinance. The gaming ordinance was adopted by Resolution No. 2015-038 by the
Alabama-Coushatta Tribal Council.
Resolution No. 2015-038 adopts the Tribal gaming ordinance, which was created to
govern and regulate the operation of Class II gaming on the Tribe's Indian lands. Because the
Tribe's ordinance permits it to conduct gaming on its Tribal Indian lands, 1 as defined by the
Y sleta del Sur Pueblo and Alabama and Coushatta Indian Tribes of Texas Restoration Act
(Restoration Act) 2 an analysis of whether the Tribe's lands are eligible for gaming was
necessary.
Analysis
The Alabama-Coushatta's ordinance permits it to conduct gaming on its Tribal Indian
lands.3 It defines Indian Lands, Tribal Lands, or Tribal Indian lands as all lands within the limits
of the Tribe's Reservation. It additionally defines Tribal Indian lands "as lands acquired by the
Secretary in trust prior to October 17, 1988, or those lands acquired by the Secretary in trust after
October 17, 1988, that meet one or more of the exceptions set forth in 25 U.S.C. § 2719. Finally,
the Tribe defines Reservation as it is defined in the Tribe's Restoration Act.
As discussed in greater detail below, the Tribal lands or Tribal Indian lands specified in
the ordinance amendment are Indian lands as defined by IGRA and are eligible for gaming under
1

Alabama-Coushatta Tribe of Texas II Tribal Gaming Ordinance § 5.
25 U.S.C. §§ 731 et seq.
' Alabama-Coushatta Tribe of Texas Class II Tribal Gaming Ordinance§ 5.
2

NEW MAILING ADDRESS: NIGC/DEPARTMENT OF THE INTERIOR 1849 C Slreet NW, Mail Stop# 1621 Washington, DC 20240 Tel: 202.632.7003
REGIONAL OFFICES

Portland, OR; Sacramento, CA; Phoenix, AZ; St. Paul, MN; Tulsa OK; Oklahoma City, OK
WWW.NIGC.GOV

Fax: 202 .632.7066

Chairperson Battise
October 8, 2015
Page 2of3
the Act. The Restoration Act, however, provides a general grant of state jurisdiction over the
Alabama-Coushatta's lands, through Public Law 280, and applies state gaming laws to the
Tribe's lands, with a qualification. Accordingly, the Restoration Act must be taken into
consideration as part of this ordinance review.
Jurisdiction
Because a similar question regarding the Ysleta del Sur Pueblo's Restoration act arose
when the Pueblo submitted its ordinance to the NIGC for the Chairman's approval, and the
Secretary of the Interior administers tribal restoration acts, the NIGC Office of General Counsel
sought the Department of Interior, Office of the Solicitor's opinion as to whether under the
Restoration Act the Pueblo can game pursuant to IGRA on its Indian lands; specifically, whether
the Pueblo possesses sufficient jurisdiction over its Restoration Act lands for IGRA to apply and
if so, how to interpret the interface between JGRA and the Restoration Act. 4 Because the Tribe
and Pueblo share the same Restoration Act, with nearly identical language, that same
jurisdictional analysis applies to the Alabama-Coushatta's portion of the Restoration Act.
As a preliminary analysis, we must examine the scope of IGRA to determine whether the
NIGC has jurisdiction over the Tribe's Restoration Act lands or phrased alternatively, whether
the Tribe's Restoration Act lands are exempt from IGRA's domain. Nothing in the IGRA's
language or its legislative history indicates that the Tribe is outside the scope ofNIGC's
jurisdiction. As such, the NIGC has broad jurisdiction over the Tribe's land.
Next, we must look to the Office of the Solicitor's opinion on the Ysleta del Sur Pueblo.
On September 10, 2010, the Office of the Solicitor concurred with our conclusion that IGRA
applies to the Pueblo and further opined the Pueblo possesses sufficient legal jurisdiction over its
settlement lands for IGRA to apply, that IGRA governs gaming on the Pueblo's reservation, and
IGRA impliedly repeals the portions of the Restoration Act repugnant to IGRA. 5 Again, because
the Tribe and Pueblo share the same Restoration Act, with nearly identical language, the Office
of the Solicitor's analysis applies to the Alabama-Coushatta. Therefore, the only remaining
questions are whether those lands qualify as Indian lands as defined in IGRA and whether they
are eligible for gaming.
Indian Lands
IGRA permits an Indian Tribe to "engage in, or license and regulate gaming on Indian
lands with such Tribe's jurisdiction. ' 6 It defines Indian lands as all lands with the limits of any

4

May 29, 2015, Letter to Deputy Solicitor, Indian Affairs Venus Prince from NIGC General Counsel, Eric N.
Shepard.
5
September 10, 2015, Letter to NIGC General Counsel, Michael Hoenig, from Deputy Solicitor for Indian Affairs,
Venus McGhee Prince. (Attachment A.)
6
25 u.s.c. § 2710(b)(l).

Chairperson Battise
October 8, 2015
Page 3of3
Indian Reservation. 7 In 1987, the Restoration Act established a reservation for the AlabamaCoushatta, 8 comprised of the Tribe's land holdings at that time. 9 Because the Tribe has a
reservation- established a year before Congress passed IGRA-it has IGRA-defined Indian
lands. Further, the Tribe identified in its ordinance that it authorizes gaming on its Tribal Indian
lands - defined as all lands within the limits of its Reservation. The Alabama-Coushatta' s
ordinance limits where it can operate a class II gaming facility to its Reservation. Accordingly,
the Restoration Act lands qualify as Indian lands under IGRA.
Finally, because the Tribe's Restoration Act which created the reservation, pre-dates
IGRA, an after-acquired land analysis is not necessary. 10
Conclusion
In conclusion, because the Tribe possesses sufficient legal jurisdiction over its
Restoration Act lands, IGRA applies. Further, because the lands qualify as Indian lands under
IGRA, the lands are eligible for gaming under IGRA.
Thank you for bringing the amended gaming ordinance to our attention. The ordinance is
approved, as it is consistent with the requirements of IGRA and NIGC regulations.
7003.

If you have any questions, please contact staff attorney Heather Corson at (202) 632Sincerely

~onodev 0. Chaudhuri

Enclosure
cc:

7

Fred Petti
Petti and Briones (via email, only: fpetti@pettibriones.com)

25 U.S.C. § 2703(4)(A); 25 C.F.R. § 502.12(a): "Indian lands means: (a) Land within the limits of an Indian
reservation."
8
25 U.S.C. § 736(a)
9
25 u.s.c. § 731(3).
10
See generally 25 U.S.C. § 2719.

